App.l
Exhibit No.l
The Fourth Circuit (“CA4”) Curiam opinion and order:
Exhibit No. la
CA4 panel judges’ curiam opinion (1/24/2018, CA4doc#26)'
UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 18-1889
XIAO-YING YU
Plaintiff-Appellant
V.
ROBERT R. NEALL, Maryland Department of Health
Secretary (formally Dennis Schrader); DAVID
BRINKLEY, Maryland Department of Budget and
Management Secretary
Defendants-Appellees
\

Appeal from the united States District Court for the
District of Maryland, at Baltimore, James K. Bredar,
Chief District Judge. (i:i7-CV-03260-JKB)
Submitted: January 22, 2019

App.2
Decided^ January 24, 2018
Before MOTZ, KEENAN, and FLORY, Circuit Judges.

Affirmed by unpublished opinions.
Xiao-Ying Yu, Appellant Pro Se. James Nelson Lewis,
OFFICE OF THE ATTORNEY GENERAL OF
MARYLAND, Baltimore, Maryland, for Appellees.
Unpublished opinions are not binding precedent in
this circuit.
PER CURIAM:
Xiao-Ying Yu appeals the district court's order
dismissing her civil action that alleged claims of
the
workplace discrimination. We have reviewed
record and find no reversible error. Accordingly, we
affirm for the reasons stated by the district court. Yii v.
NeaU, No. i:17-cv-03260-JKB (D. Md. June 26, 2018).
We deny as moot Yu’s "Motion for Concerns of the
Docket Records." We dispense with oral argument
are
because the facts and legal contentions
adequately presented in the materials before this
court and argument would not aid the decisional
AFFIRMED
process.

App.3
Exhibit No.lb.
CA4’s judgment:
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 18-1889
(i:i7-CV-03260-JKB)
XIAO-YING YU
Plaintiff-Appellant
V.
ROBERT R. NEALL, Maryland Department of Health
Secretary (formally Dennis Schrader); DAVID
BRINKLEY, Maryland Department of Budget -and
Management Secretary
Defendants-Appellees
JUDGMENT

(Filed January 24, 2019)
In accordance with the decision of this court,
the judgment of the district court is affirmed.
This judgment shall take effect upon issuance
of this court’s mandate in accordance with Fed. R.
App. P. 41.
/s/ Patricia S. Connor, Clerk

App.4
Exhibit No. 2
The Petitioner’s informal brief (10/1/2018) and the
District Court’s decision (6/26/2018).
Exhibit No.2a.
The District Court’s memorandumIN THE UNITED STATES DISTRICT
COURT FOR THE DISTRICT OF MARYLAND
* Civil No. JKB-17-3260

Xiao-Ying Yu

*

Plaintiff

*

V.
Dennis Schrader, et al

*

Defendants

*
*

MEMORANDUM
(Filed June 26, 2018)
Plaintiff Xiao-Ying Yu was fired from the
Maryland Department of Health, Center for Chronic
on
Disease Prevention and Control ("CCDPC")

App.5
November 3, 2014. Just over three years later, she
filed this lawsuit, pro se, on November 6, 2017,
naming as Defendants the Secretary of the Maryland
Department of Health,1 and the Secretary of the
Maryland Department of Budget and Management.
She alleged, essentially, that she was discriminated
against and retaliated against when she worked at
CCDPC. Defendants moved to dismiss on January 3,
2018. (ECF No. 6.) After Plaintiff responded in
opposition (ECF No. 20) and Defendant replied (ECF
No. 23), Plaintiff obtained counsel, and was given an
opportunity to file a supplemental opposition (see ECF
No. 29). Plaintiff availed herself of that opportunity
(see Supp. Opp'n, ECF No. 30) and Defendants have
replied to that paper (ECF No. 31). Defendants' motion
is therefore fully briefed and ripe for review. There is
no need to hold a hearing to resolve the matter. See
Local Rule 105.6 (D. Md. 2016). Plaintiffs complaint
fails under Rule 8 to provide a short and plain
statement of her claims. Nevertheless, the Court
considered her possible claims, including those
asserted by her new counsel, and they fail for a variety
of reasons, including failure to properly exhaust
administrative remedies and because Defendants are
immune.

1 Plaintiff filed this lawsuit on November 6, 201 7, when
Dennis Schrader was still Acting Secretary of the Maryland
Department of Health. The current secretary is Robert R.
Neall, but neither party brought this to the attention of the
Court or requested to substitute the parties.

App.6
L Background
Plaintiff, a woman of Chinese national origin
over sixty years old, began working for CCDPC on
November 4, 2009, as an Epidemiologist® Starting in
2010 she was given increased job responsibilities for
which she was not compensated properly. She was told
she would be promoted, but her HR application
process stalled, largely because various supervisors
sabotaged that process. Plaintiff reserves most of her
complaints for a particular supervisor, Ms. Sara Barry.
Ms. Barry promoted a younger, white woman instead
of Plaintiff. She often baselessly reprimanded Plaintiff
for going outside the chain of command, and prevented
Plaintiff from making complaints. Ms. Barry tampered
with some type of HR document, an "MS'22," that was
supposed to reflect Plaintiffs employment background.
Ms. Barry deleted projects from the MS'22 that
Plaintiff had worked on, or changed information about
Plaintiffs skills in order to set Plaintiff up for failure.
Ms. Barry amended Plaintiffs self'evaluations from
"outstanding" to "satisfactory" and placed negative
material in Plaintiffs HR file, all out of retaliation for
Plaintiffs complaints about Ms. Barry. Ms. Barry tried
2 The facts are recited here as alleged by Plaintiff, as this
memorandum is evaluating a motion to dismiss. See
Ibarra v. United States, 120 F.3d 472,474 (4th Cir. 1997).
3 Plaintiff may have worked at CCDPC in the past, as she
wrote in her complaint that she was reinstated on
November 4, 2009.

App.7
to prevent Plaintiff from receiving an award,
mischaracterized Plaintiffs work contributions, and
interfered with Plaintiffs access to databases and files.
Plaintiff suffered deteriorating health due the
harassment and retaliation she faced at work. She was
evaluated by a doctor who worked for the State
Medical Director's Office, and he seemed to think that
Plaintiff suffered from workplace stress, anxiety
disorder, and depression. (See Am. Compl. Ex. 28, ECF
No. 4-1.) 4 At some point, Plaintiff requested an
accommodation for her disability. Plaintiff does not
clearly allege what her disability is, but it appears to
be essentially workplace stress and anxiety, and her
requested accommodation seems to have been not
working under Ms. Barry. This accommodation
request was denied, Ultimately, Plaintiff was
terminated from her position on November 3, 2014.
Plaintiff filed two Charges of Discrimination
with the Equal Employment Opportunity Commission
4 Plaintiff alleges that she was examined by the State
Medical Director and she "was diagnosed with 'workplace
stress , major anxiety , major depressive disorder and Post
Traumatic Syndrome [sic] Disorder. (Am. Compl. p. 9.)
But she cited to her workability evaluation, and attached
that document to her complaint. That document was
prepared by a doctor who worked in the State Medical
Director's Office, nowhere seems to "diagnose" Plaintiff
with anything, and nowhere mentions "Post Traumatic
Syndrome Disorder" (or Post Traumatic Stress Disorder).
There is a section for "IMPRESSION" under which he
wrote "Workplace stress," "Anxiety disorder," and
"Depression."

App.8
("EEOC"). On November 12, 2013, Plaintiff asserted a
charge of age and race discrimination. (Am. Compl. pp.
5-6.) Plaintiff was granted a right-to-sue letter
fourteen days later, on November 26, 2013. Plaintiff
"did not file the lawsuit." p. 6.) Plaintiff filed a second
Charge of Discrimination on September 3, 2014. (Id. p.
10.) It is unclear from Plaintiffs complaint what the
substance of this Charge was. She does not allege that
she received a right-to-sue letter.5
Plaintiff filed the instant action on November 6,
2017. She named Dennis Schrader. Secretary of the
Maryland Department of Health, and David Brinkley,
Secretary of the Maryland Department of Budget and
Management, as Defendants. (Plaintiff does not allege
that she ever worked for the Maryland Department of
Budget and Management). Plaintiff filed her
Complaint pro se and filed an amended complaint pro
se. Several months after Defendants moved to dismiss
5 Plaintiff argues in opposition to Defendants motion to
dismiss that she received a right-to-sue letter, and
provides that letter to the Court as an exhibit attached to
her opposition. (See Opp 'n Ex. 1, ECF No. 20-1. ) It is
welle stablished that parties cannot amend their
complaints through briefing or oral advocacy." S. Walk at
Broadlands Homeowner 's Ass'n v. OpenBand at
Broadlands, LLC, 713 F.3d 175, 184 (4th Cir. 2013). This
is true for represented and pro se litigants alike . See
Uzoechi v. Wilson , Civ. No. JKB-16-3975, 2017 WL
3968535, at *1 (D. Md. Sept. 8, 2017) (remanded in part
on other grounds) (not considering allegations set forth in
a pro se litigant’s briefing that were not contained in the
complaint).

App.9
Plaintiffs amended complaint Plaintiff engaged
counsel, who then began to represent her. Counsel
continues to represent her now, and through that
counsel she has filed a supplemental opposition to
Defendants' motion to dismiss. Plaintiff has not moved
to amend her complaint a second time.
II. Standards
Ultimately, the Court will dismiss Plaintiffs
complaint pursuant to Federal Rules of Civil
Procedure 8, 12(b)(1), and 12(b)(6). The standards for
reviewing complaints under those rules are as followsa. Federal Rule of Civil Procedure 8
The Federal Rules require that a complaint
contain a "short and plain statement" of the grounds
for the Court's jurisdiction and the claim, and "a
demand for the relief sought." Fed. R. Civ. P. 8(a).
"Short and plain" means short and plain. The Court
does not look for technical forms, magic words, and
legal jargon. What matters here is notice- "In general,
a pleading must provide the defendant and the court
with fair notice of what the plaintiffs claim is and the
grounds upon which it rests." Jackson v. Experian Fin.
Serves., Civ. No. RDB-13-1758, 2014 WL 794360. At *1
(D. Md. Feb. 26, 2014) (internal quotation marks
omitted). Courts hold pro se Litigants "to less
stringent standards than trained lawyers," and courts
afford a pro se complaint a "Generous construction."
Engle v. U.S.736 F. Supp. 670, 671 (D. Md. 1989). But
—these principles are not without limits." Id. at 672. A

App.10
plaintiffs status as pro se does not absolve her of the
duty to plead adequately." Moore v. Bd. of Educ. of
Baltimore City, Civ. No. RDB-16- 3439,2017 WL
3172820, at*4 (D. Md. July 25, 2017).
b. Federal Rule of Civil Procedure 12(b)(1)
The
burden
of
proving subject-matter
jurisdiction is on the plaintiff. Adams v. Bain, 697 F.2d
1213, 1219 (4th Cir. 1982). At this stage, "it is the
court's task to evaluate whether the pleadings allege[ ]
facts that affirmatively and plausibly suggest" that the
Court has jurisdiction. Piper v. Meade & Assocs., Inc.,
282 F.. Supp. 3d 905, 907 (D. Md. 2017) (discussing
standing). That is, the Court will take all allegations
in Plaintiff s complaint as true, and determine
whether they are sufficient to establish subj ect'matter
jurisdiction. See SB Charles Alan Wright & Arthur R.
Miller, Federal Practice and Procedure § 1350 (3d. ed.
Apr. 2018 Update) ("A facial attack challenges subject
matter jurisdiction without disputing the facts alleged
in the complaint and requires the court to treat the
allegations of the complaint as true.").
c. Federal Rule of Civil Procedure 12(b)(6)
A complaint must contain "sufficient factual
matter, accepted as true, to 'state a claim to relief that
is plausible on its face.'" Ashcroft v. Iqbal, 556 U.S.
662, 678 (2009) (quoting Bell Atlantic Corp. v.
Twombly, 550 U.S. 544, 570 (2007)). An inference of a
mere possibility of misconduct is not sufficient to
support a plausible claim. Id. at 679. Although when

App.ll
considering A motion to dismiss a court must accept as
true all factual allegations in the complaint, this
principle does not apply to legal conclusions couched
as factual allegations. Twombly, 550 U.S. at 555.
III. Analysis
Plaintiffs amended complaint will be dismissed
for several reasons. It fails to present a short and plain
statement of her claims, and therefore fails under Rule
8. Even if the Court reads Plaintiffs amended
com plaint according to her current interpretation of it
(put forth by her new counsel), her claims still fail for
a variety of reasons,
a. Rule 8
Plaintiffs amended complaint is a maze. It
consists of thirteen pages, all single spaced, all
underlined. Its headings present an air of logical form
that belies the dizzying allegations contained withinallegations that often reference unexplained persons,
unexplained acronyms and unexplained HR forms.
Some allegations proceed in impenetrable run-on
sentences. (For example:
Yet, in May 2011, Dr. Prince refused to complete the
HR required MS-44 and MS-2024 forms with the facts
(about the increase of Ms. Yu job duties and changes of
the supervision level since 1/2010) insisting on taking
the easiest way to give Ms. Yu non-competitive
promotion from Epidemiologist I to Epidemiologist II,
grade 17, payment step 9, $55,332 in 2011, which she
previously mentioned once to Ms. Yu.

App.12
(Am. Compl. p. 2)). Plaintiff s amended complaint
contains passing references to statutes and legally
relevant events (such as filing Charges of
Discrimination), as well as seemingly novel causes of
action, like "willful underpayment," and discussion of
events of questionable relevance to any claim. It is a
document that perplexes the Court and, more
importantly, would leave any defendant largely at a
loss as to what he or she was defending against.
Importantly, Plaintiffs errors do not arise on.ly
from a lack of legal training. The problem with
Plaintiff s complaint is not that she ineloquently
explained the basis for subject* matter jurisdiction or
that she fails occasionally to reference a particular
section of the United States Code. Plaintiff s pleading
errors arise from a lack of proofreading, or perhaps
some forethought about how to present her claims. The
Federal Rules do not require Plaintiff to put forth a
statement filled with legal jargon. They require a
"short and plain" statement. Plaintiff s complaint is
not "short and plain."
Plaintiff argues that the Court should overlook
her pleading errors because she is pro se. That is a
curious argument to be made by a Plaintiff who is
represented by counsel. To be sure, Plaintiff was pro se
when she filed this nearly indecipherable complaint.
But she is pro se no longer. And yet she has not moved
the Court to amend her complaint a second time. Her
amended complaint, then, exists in a sort of bar do, a
state somewhere between a pleading filed by counsel

App.13
and a pleading filed pro se! and it is reviewed in light
of that circumstance. Even /Plaintiff herself could be
excused for her poor presentation, her current counsel
canno t piggy-back on Plaintiff s purported ignorance of
the pleading rules. Plaintiff s complaint falls short of
the pleading standards even for a pro se litigant, and
far short of the standards for a litigant such as
Plaintiff who is not, in fact, pro se6. Her complaint
fails under Federal Rule of Civil Procedure 8(a).
Still, the Collet. Will look past this failure to
examine the viability of several claims that Plaintiff
argues she has presented in her complaint, as well as
the claims Defendants believe she has brought.
b. Employment Discrimination Claims
Plaintiff argues now that she has brought claims
under Title VII of the Civil Rights Act of 1 964 ("Title
VH"), the Americans with Disabilities Act (".ADA"),
the Age Discrimination in Employment Act ("ADEA")
and the Rehabilitation Act. Insofar as she brought
these claims, they will be dismissed in part for lack of
subject matter jurisdiction due to her failure to allege
6 Plaintiffs newly acquired counsel makes arguments that
actually enforce the Court's finding that the complain fails
under Rule 8. For example, Plaintiff now argues that she
asserted a Rehabilitation Act claim. If that is true , her
complaint clearly does not put the Defendants on noticethe words "Rehabilitation Act" do not appear anywhere in
Complaint, even though "Title VII ," "ADA", and "ADEA
appear multiple times, and Plaintiff was clearly capable of
citing to the u.s.Code and naming statutes. (See Am.
Compl. p. 13.)

App.14
proper exhaustion of her administrative remedies, and
in part because they fail to state a claim upon which
relief can be granted.
"[A] failure by the 'plaintiff to exhaust
administrative remedies concerning a Title VII claim
deprives the federal courts of subject matter
jurisdiction over the claim." Jones v. Calvert Glp, Ltd.,
551 F.3d 297, 300 (4th Cir. 2009). The same is true for
claims arising under the ADEA, see id at 300-301, as
well as the ADA or the Rehabilitation act, see Snead v.
Ed. of Educ. of Prince George's City., 815 F. Supp. 2d
889, 894 (D. Md. 2011). For the purposes of this case
there are two important jurisdictional exhaustion
requirements that apply to all of these statutes- A
plaintiff must first file a Charge of Discrimination
with the EEOC, and the EEOC must issue a right-tosue letter. Roberts v. Am. Neighborhood v. fortg.
Acceptance Co., Civ. No. JKB‘17-0157, 2017 WL
3917011, at *2 (D. Md. Sept. 6, 2017) (citing Davis v.
North Carolina Dep't of Corr., 48 F.3d 134, 140 (4th
Cir. 1995) (discussing Title VII); see Snead, 815 F.
Supp. 2d at 894 (exhaustion requirements for ADA
and Rehabilitation Act are the same as requirements
for Title VII); Mandene v. ADT Sec. Sys., Inc., Civ. No.
ELH-09-3103, 2012 WL 892621, at *25 (D. Md. Mar.
14, 2012) (exhaustion requirements for ADEA are
same as for Title VII).7
7 A court may have subject-matter jurisdiction over a case
brought by the EEOC in which the EEOC has not issued a
right to sue letter.

App.15
If a plaintiff receives a right-to-sue letter, she
has ninety days to file suit. See, 42 U.S.C. § 2000e5(f) (1 ). Failure to comply with this statutory
requirement, however, does not destroy the Court s
subject-matter jurisdiction! rather it is "in the nature
of a. Statute-of-limitations defense." Laber v. Harvey,
438 F.3d 404, 429 n. 25 (4th Cir. 2006). Thus, if a
plaintiff fails to file a claim within ninety days of
receiving her right-to-sue letter (and there are not
grounds for equitably tolling the clock,), her claim will
be dismissed under Rule 12(b)(6) for failure to state a
claim upon which relief can be granted. See Roberts,
2017WL 3917011,at *3.
Charge of
Plaintiff alleged that she filed
Discrimination with the EEOC on September 2, 2014
(the second charge), but she does not allege that she
ever received a right-to-sue letter. Whatever claims
arise from that Charge of Discrimination will therefore
be dismissed for lack of subject-matter jurisdiction.8
Plaintiffs statutory employment discrimination claims
that arise out of her first Charge of Discrimination will
be dismissed under Rule 12(b)(6) because Plaintiff did
8 Again, Plaintiff argues that she received a right-to-sue
letter, but the Court of Appeals for the Fourth Circuit has
"long held that receipt of, or at least entitlement to, a
right-to-sue letter is a jurisdictional prerequisite that must
be alleged in a plaintiffs complaint." Davis, 48 F.3d at 140
(emphasis added). Despite Plaintiffs argument that she
has received a right-to-sue letter , she has not moved to
amend her complaint a second time to make such an
allegation, even after obtaining counsel.

App.16
not file suit within ninety days of her receipt of the
right-to-sue letter. Plaintiff alleged that. She received
the right-to-sue letter associated with this Charge on
November 26, 2013, and did not file suit until 1,441
days later. Plaintiffs claims based on this Charge of
Discrimination are therefore time-barred.
In short, any claim arising from her first Charge
of Discrimination was filed too late, any claim arising
from her second Charge fails for lack of subject matter
jurisdiction (because she does not allege that she
received a right-to-sue letter), and any statutory
employment discrimination claim (under Title VII,
ADA, ADEA, or the Rehabilitation Act) not addressed
in either fails for lack of subject matter jurisdiction as
well (because she does not allege that she filed any
other Charge with the EEOC).
c. Tort Claims
Defendants understood Plaintiff s complaint as
asserting, in part, a claim for "Willful underpayment,
which they interpret as some form of a tort. Plaintiff,
in her supplemental opposition, seems at first to agree.
She begins her supplemental opposition stating that
she filed a complaint "alleging causes of action of
willful underpayment [and] unequal payment
(Supp. Opp'n at 1.) But then, several pages later, she
argues that she did not bring a "willful under
payment” claim, and that "[ulnder payment is simply a
statement of facts and a claim for damage." (Id at 6.)
So, Plaintiff argues that she did not bring a "willful
underpayment" tort claim; rather, she alleges that she

App.17
was willfully underpaid and seeks recourse for that
harm. This makes no sense. The Court remains unsure
as to whether Plaintiff intends to bring a "willful
underpayment” claim (whatever that may be) but will
proceed to analyze the viability of such a claim out of
an abundance of caution.
Under Maryland law, civil actions must be filed
"within three years from the date [they] accrue [ ]
unless another provision of the Code provides a
different period of time." Md. Code Ann., CT’s. & Jud.
Proc. § 5-101. Plaintiff was fired on November 3, 2014.
Aside from some cryptic allegations about interference
with the EEOC investigation in 2015 and 2017 (see
Am. Compl. p. 13), a confusing allegation that she
"stated" something in 2015 (see id. p. 11), and what
appear to be some typographical errors,9 Plaintiff does
not allege that her employer acted to her harm her
after November 3, 2014. Therefore, regardless of
whether Plaintiff intended to bring a tort claim, or
what the substance of that tort claim is. Such a claim
would be barred by Maryland's three year statute of
limitations, as she did not file her claim in this Court
until three years and three days after November 3,
2014.
d. Eleventh Amendment Immunity
The Eleventh Amendment generally bars suits
9 For example, Plaintiff alleged that her "access to office
mail was blocked by Ms. Barra on 9/3/201 7," but Plaintiff
was out of her job almost three years by then. (Am. Compl.
p. 10.)

App.18
by citizens against their own state, including suits
such as the one here: a suit by a citizen of the State of
Maryland which "is in essence one for the recovery of
money from the state." Edelman v. Jordan, 415 U.S.
651, 662- 63 0974) (quoting Ford Motor Co. v. Dep’t of
Treasury, 323 U.S. 459, 464 (1945)). The only For
example, Plaintiff alleged that her "access to office
mail was blocked by Ms. Barra on 9/3/2017.••but
Plaintiff was out of her job almost three years by then.
(Am. Compl. p. 10.) Relevant exceptions to this general
immunity are when the state has consented to suit, or
when Congress has abrogated the immunity.
The State of Maryland has not consented to this
suit, and Congress has not abrogated Eleventh
Amendment immunity for ADA or ADEA claims.
(Plaintiff s assertion that the State has consented by
engaging in this litigation or the EEOC process is
incorrect. See Lapides v. Ed. of Regents of Univ. Sys.
of Georgia, 535 U.S. 613, 622 (2002) (explaining that
voluntary participation in litigation may constitute a
waiver of immunity, but involuntaly participation
does not)). Plaintiff contends that Congress abrogated
immunity for claims arising under the Rehabilitation
Act when the State accepted certain qualifying federal
funds. This contention is doubly misplaced: Plaintiff
does not assert a Rehabilitation Act claim, and even if
she did, she has not alleged that the State has
accepted qualifying federal funds. See Pickens v.
Comcast Cable, 2015 WL 127822, at *2 (D. Md. Jan. 7,
2015) ("Under the Rehabilitation Act, a plaintiff also

App.19
must show that the program or activity in question
receives federal financial assistance.").
Most troublingly, Plaintiff asserts that Congress
abrogated Maryland's Eleventh Amendment immunity
for suits under the ADEA, and cites to Goshtasby v.
Board of Trustees of the University of Jllinois,_ 141
F.3d 761 (7th Cir. 1998) for that proposition.
Goshtasby is not good law. Goshtasby's holding that
the ADEA was a valid use of Congress's 14th
amendment enforcement power to abrogate states'
Eleventh Amendment immunity was itself abrogated
in Kimel v_ Florida Bd. of Regents, 5.28 U.S. 62, 82-83
(2000).
e. Miscellaneous claims
Plaintiff references several other claims
throughout her amended complaint, particularly on
the final page. Neither.' party addresses these
purported claims in their motions papers> to wit, a
violation of the Fair Labor Standards Act, violations of
42 U.S.C. '§ § 1981 and 1983, and a violation of 29
U.S.C. £ 187. If Plaintiff ever intended to bring claims
under -these statutes, - it; appears ; that she has
abandoned them, aS they are not discussed in her
opposition. Even if Plaintiff had not abandoned these
claims,--they would still fail. Mere reference to a
statute at the end of a complaint is insufficient to state
a claim, Further, there are problems with these
statutory ■ references that suggest Plaintiff was not
seriously attempting to bring claims under these
statutes. For■■. example, Plaintiff mentions the - "Fair

P ;V? -V-P- ’ .v.

; •/

App.20
Labor Standards Act" but cites to a section of the U.S.
Code for the ADA. She nowhere explains what
Constitutional violation would underlie a Section 1983
claim. And 29 U.S.C. § 187 makes is unlawful for a
labor organization to engage in unfair labor practices
as defined in the National Labor Relations Act
Plaintiff barely mentions that she is in a union, Jet
alone alleges sufficient facts to demonstrate an unfair
labor practice that she was subjected to by said union
(whatever union it may be), or any other prohibited
conduct falling under the umbrella of that statute. To
the extent Plaintiff has attempted to bring any of
these claims, they will be dismissed.
f. Leave to amend
Plaintiff concludes her supplemental opposition
with a request: that she be given leave to file a second
amended complaint in the event that her first
amended complaint is dismissed. The Court will deny
that request for two reasons. First, Plaintiff could have
moved to amend her complaint at any time prior to the
entry of this order, and chose not to do so, even after
acquiring counsel. Nor has she provided the Court
with any proposed amendments, --or other indication
of the amendments (she] wishes to make." Estrella v.
Wells Fargo Bank, N.A., 497 F. App'x 361, 362 (4th
Cir. 2012). Under such circumstances, the Court will
not grant Plaintiff "a blank authorization to 'do over'
[her) complaint." Id. (quoting Francis v. GiacomeUi,
588 F.3d 186, 197 (4th Cir. 2009); cf Confederate Mem
'1 Ass 'n, Inc. v. Hines, 995 F.2d 295, 299 (D.C. Cir.

App.21
1993) C'[ A] bare request in an opposition to a motion
to dismiss'without any indication of the particular
grounds on which amendment is sought"does not
constitute a motion within the contemplation of Rule
15(a)." (Internal citation omitted)).
Second, the Court is not dismissing Plaintiff s
amended complaint only under Rule 8. To be sure,
when a court dismisses a complaint under Rule 8, such
dismissal is usually without prejudice, and the
plaintiff will be given leave to amend. See North
Carolina v. McGuirt, 114 F. App’x 555, 559 (4th Cir.
2004) (noting that dismissal with prejudice under Rule
8 "is an extreme sanction"). But the Court considered
Plaintiff s claims that she now argues are contained in
her amended complaint, and has found significant
structural problems: she has failed to properly exhaust
her administrative remedies and Defendants are
immune from many of her claims. A more clear and
concise version of Plaintiff s amended complaint would
not cure these defects. See Labor, 438 F.3d at 426
(leave to amend under Rule 15(a) should be denied
when the proposed amendments would be futile).
IV. Conclusion
Plaintiff s amended complaint fails under Rule 8,
in part under Rule 1 2(b)( l), and in part under Rule
12(b)(6). Accordingly, Defendants' motion to dismiss
will be granted by accompanying order, and the Clerk
will be directed to close the case. An order shall issue
setting forth this disposition.

App.22
DATED this 26th day of June, 2018. BY THE COURT:
Isl -James K. Bredar
Chief Judge 2. The District Court’s order:
IN THE UNITED STATES DISTRICT
COURT FOR THE DISTRICT OF MARYLAND
*

Xiao-Ying Yu

■

:

Civil No. JKB-17-3260

*

Plaintiff
V.

*

Dennis Schrader, et al

*
-A

Defendants

*
4k

8 BC.3.KI III ltd mill EB* ■»*

ja mi aicaia HiaiaiBa

ORDER
(Filed June 26, 2018)
In accordance with the foregoing memorandum, IT
IS ORDERED:
1. Defendants’ motion to dismiss, construed as a
motion to dismiss - under Federal Rules of Civil
Procedure 8, 12(b)(1), aha 12(b)(6)is.GRAN'T'BD:. •
Plaintiffs
statutory'
employment
a.
discrimination claims arising solely from her alleged

* ,v

. •

'•

« • •.

•.

b

•>. f

i

•

K. ’

.

•. it

'

V'

f .

L

App.23 .
September 2, 2014 Charge of Discrimination, or based
’Oil claims l'.lOt presented to the
-

Equal Employment Opportunity Commission at all,
are dismissed pursuant to Rhle 8 and, Rule 12(b)(1) for
lack of subject-matter jurisdiction. These claims are
dismissed without prejudice,
b. The remainder of Plaintiffs claims are
dismissed pursuant to Rule 8 and Rule 12(b)(6) for
failure to state a claim upon which relief can be
granted. These claims are dismissed with prejudice.
2. Plaintiffs Amended Complaint is DISMISSED
and the Clerk is directed to CLOSE THE CASE.
DATED this 26th day of June , 2018.
BY THE COURT:
/s/ James K. Bredar
Chief Judge

Exhibit No.2B.
The Petitioner’s informal brief
IN THE UNITED STATES COURT OF
APPEALS FOR THE FOURTH CIRCUIT
Xiao-Ying Yu
Plaintiff -Appellan t
V.

* Case No. 18-1889

Additional material
from this filing is
available in the
Clerk's Office.

